CERTIFICATE OF SERVICE

I, Harold Gashe do hereby declare under penalty of perjury
that I placed a true and correct copy of the foregoing: WRIT OF
CERTIORARI TO THE UNITED STATES SUPREME COURT, with postage
prepaid and affixed into the prison mailbox on this 15th day of
April 2021 and properly addressed to the following:

CLERK OF THE COURT
UNITED STATES SUPREME COURT
1 FIRST STREET NE
WASHINGTON, DC 20543

Respectfully,

m
Harold Gashe
Reg. No. 03501-029
Federal Correctional Complex
P.0. Box 3000
Forrest City, AR 72336

